 DOE F 1325.8
    (B.89)
  EFO (07-90)
                                                                                         Department of Energ
United States Government

Memorandum
     DATE:
                  SEP 24 20t
 REPLY TO:      IG-34 (A04TG032)                                       Audit Report No.: OAS-L-04-21

  SUBJECT:      Evaluation of "The Federal Energy Regulatory Commission's Cyber Security Program - 2004"

         TO:    Chairman, Federal Energy Regulatory Commission

                                                                                                    of the
                The purpose of this report is to inform you of the results of our annual evaluation
                Federal Energy Regulatory Commission's unclassified cyber security program. This
                evaluation was initiated in June 2004 and our field work was conducted through September
                2004. The evaluation methodology is described in the attachment to this report.

                Introduction and Objective

                The Commission's increasing reliance on information technology (IT) is consistent with
                satisfying the President's Management Agenda initiative of expanding electronic
                government. The Commission expects to invest $23.5 million on IT related activities in
                Fiscal Year 2004 to meet mission requirements of regulating interstate transmission of
                natural gas, oil and electricity, and regulating gas and hydropower projects.

                 As required by the Federal Information Security Management Act (FISMA) and the Office of
                 Management and Budget (OMB) implementing guidance, the Office of Inspector General
                 (OIG) performed an independent evaluation to determine whether the Commission's
                 unclassified cyber security program protected data and information systems.

                 Conclusions and Observations

                 Our evaluation revealed that the Commission had made a number of improvements in its
                 unclassified cyber security program. For instance, we found that the Commission had:

                     * Finalized a certification and accreditation methodology in March 2004 and recently
                       completed the certification and accreditation process for all major applications and
                       general support systems;

                     * Developed system-level contingency plans for all major systems; and,
                                                -2-

                                                                 (NIST) Security
   * Utilized the National Institute of Standards and Technology
     Self-Assessment Guide for IT Systems.
                                                                           security program.
The above actions should continue to strengthen the Commission's cyber
                                                  completely  tested only one of five
However, we observed that the Commission had
                                                             Commission    used the NIST risk
system-level contingency plans. Additionally, although the                      tailored to its
assessment methodology, it had yet to finalize a risk assessment methodology
                                                                            organization and
needs--a key step in determining current security vulnerabilities within an
                                                                     ongoing initiatives should
implementing mitigating controls. Successful completion of these
help correct remaining cyber security problems at the Commission.

Since no recommendations are being made in this letter report, a formal response is not
required. We appreciate the cooperation of your staff throughout the audit.



                                               rge . Collard, Acting Director
                                           Science, Energy, Technology,
                                             and Financial Audits
                                           Office of Audit Services
                                           Office of Inspector General

 Attachment

 cc:     Executive Director, FERC
         Chief of Staff, DOE
         Chief Information Officer, DOE
                                                                                   Attachment



SCOPE AND METHODOLOGY
                                                   September 2004. We evaluated controls
We performed our evaluation between June and              of access controls related to
over network operations to determine the effectiveness
                                                          internal and external sources. The
safeguarding information resources from unauthorized               controls in areas such as
evaluation included a limited review of general and application                       and change
certification and accreditation, access controls, application software development
controls, and contingency planning.
                                                                          regulations
We satisfied our evaluation objective by reviewing applicable laws and
                                                                    such as FISMA and 0MB
pertaining to cyber security and information technology resources,
Circular A-130 (Appendix II), and reviewing the Commission's overall cyber security and
                                                                     applicable standards
program management, policies, and procedures. We also reviewed
                                                                           The Commission's
guidance issued by the National Institute of Standards and Technology.
                                                      annual audit of the  Department's
headquarters were evaluated in conjunction with the
                                                                                 the Office of
Consolidated Financial Statements, utilizing work performed by KPMG LLP,
                                                                                  testing of
Inspector General contract auditor. Their review included limited analysis and of
                                                                      of the status
 general and application controls for systems and a follow up review
 previously reported weaknesses.
                                                                                       Results Act
 We evaluated the Commission's implementation of the Government Performance
                                                                            security. We did not
 of 1993 related to the establishment of performance measures for cyber
                                                                               our review was
 rely solely on computer-processed data to satisfy our objectives. Because
 limited, it would not have necessarily disclosed all internal control deficiencies that may have
 existed at the time of our review.

  The review was conducted in accordance with generally accepted Government auditing
                                                                                          with
  standards for performance audits and included tests of internal controls and compliance
                                                              objectives. We held an exit
  laws and regulations to the extent necessary to satisfy the
  conference with management officials on September 23, 2004.
10/01/04        07:48 FAX 301 903 4656                CAPITAL REGION              -+ FORS FIVEA                 0001



DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


Memorandum
        DATE:       SEP 30 2004
    REPLY TO
     ATTN OF:     IG-34 (A04TG032)

    SUBJECT:      Final Report Package for Evaluation of "The Federal Energy Regulatory Commission's
                  Cyber Security Program - 2004" Audit Report Number: OAS-L-04-21
          TO:     Rickey R. Hass, Assistant Inspector General for Audit Operations


                  Attached is the required final report package on the subject audit. The pertinent details are:
                  1. Actual Staff days:          67
                      Actual Elapsed days:       95                                        .

                  2. Names of OIG and/or contractor audit staff:
                      Assistant Director:        Kevin Majane                                  r\         S"L
                      Team Leader:               Dan Weeber
                      Auditor-in-Charge:         Heather Lego                                       .   rýOCL
                      Audit Staff:               Mary Anthony and Chari Reines

                   3. Coordination with Investigations and Inspections:
                      Investigations:            Reginald France
                                                 June 1, 2004
                      Inspections:               Fatima Pashaei
                                                 June 1, 2004



                                                               rge   Collard, Acting irector
                                                         Science, Energy, Technology,
                                                           and Financial Audits
                                                         Office of Audit Services
                                                         Office of Inspector General
                   Attachments:
                   1. Final Report
                   2. Monetary Impact Report
                   3. Audit Project Summary Report
                   4. Audit Database Information Sheet
.10/01/04 .. 07:48 FAX 301      903 4656                     CAPITAL REGION                    .   FORS FIVEA                     91f003




                       MONETARY IMPACT OF REPORT NO.: OAS-L-04-21


1. Title of Audit:     Evaluation of "The Federal Energy Regulatory Commission's Cyber
                       Security Program -2004"

2. Division:           Science, Energy. Technology, and Financial Audits Division

3. Project No.:        A04TG032

4. Type of Audit:

      Financial:                                             Performance:       X
         Financial Statement                                   Economy and Efficiency                    X
         Financial Related                                     Program Results
      Other (specify type):

5. Please report monetary savings identified in the report using applicable columns. Provide additional
explanations of audited activities/locations in Section No. 6 - Remarks.
                                                                                                      MGT.            POTENTIAL
         FINDING                 COST                           QUESTIONED COSTS                    POSITION           BUDGET
                               AVOIDANCE                                                                               IMPACT
(A)            (B)            (C)      (D)             (E)         (F)     (G)          (H)              (1)             (J)
               Title          One    Recurring     Questioned    Unsup-   Unre-        Total        C=Concur            Y=Yes
                              Time   Amount                      ported   solved    (E)+(F)+(G)     N=Noncon            N=No
                                     PerYear                                                         U=Undec

      None



TOTALS-ALL FINDINGS                            _______::                                            :.:...:.:"...::




6. Remarks: Audit report contains no reportable potential monetary impact.


 7. Contractor:                                            10. Approvals:
 8. Contract No.: _Division                                        Director/Date:                                                     j
 9. Task Order No.:                                        Technical Advisor & D                                                  /
   10/01/04    07:48 FAX 301 903 4656                                                 CAPITAL REGION                    4 FORS FIVEA                                     U002

                                                        Office of the Inspector General (OIG)
                                                   Audit Project Office Summary (APS)
                                                                                                                                                                    Page 1
Report run on:                        September 29, 2004 11:08 AM


  iAudit#: A04TG032                 Ofc: ATA                      Titles FERCS FEDERAL INFORMATION SECURITY MGT ACT



                                                           Planned                     End of Survey          Revised                  Actual
                                                          ----------                  ---------           -------------------         ---------

  ;Entrance Conferences.....                            01-OCT-03                                         21-JUN-04               21-JUN-04
   Survey:..................
   iDraft Report:............
   Completed (With Report):.                             30-SEP-04                                        17-SEP-04               24-SEP-04                  (R      )

   ------------ Elapsed Days:                                          365                                           88                     95
                                                                                                                   Elap.        Less Susps

   Date Suspended:                                                                Date Terminated:
   iDate Reactivated:                                                             Date Cancelled:
   :DaysSuspended(Cur/Tot):                                       (              )Report Number:          OAS-L-04-21
   Rpt Title:                             Report Type:     LTR LETTER REPORT
   EVALUATION OF "THE FEDERAL ENERGY REGULATORY COMMISSION'S CYBER SECURITY PROGRAM - 2004"

     .__',        · J: ' * .1..*:.
               '* '-'      :'*:·: . : ' ; .: ·:.-: :__ :: '   :
                                                                  **   *: j i   a^.                                        .· · :ii     .... ....                                  .

   iClass:     PER        PERFORMANCE
   :Program:              Not Found
   MgtChall: 005 NATIONAL SECURITY (F
                                                                                                    AD:   530       MAJANE
   Site:       SSA         SINGLE-SITE AUDIT
                                                                                                  AIC: 725          LEGO
                                                                                                       725          LEGO
   |SecMiss:
   jSecMiss:              Not Found
                          Not Found                                                          Team AIC:
                                                                                                  Ldr: 713          WEEBER
   PresInit: EEG          EXPANDED ELECTRONIC                                                Tech Adv: 833          RUBB

                    : .
                 [ :.         ..*     *:       : :•
                                                 " :::.:' ,::..
                                                              '::'....:
                                                                  " "": ...
                                                                         "i'.:
                                                                             .. ... "- :                   ~:.::.:'    j i.: '""
                                                                                                                :: .::%"
                                                                                                                      :..""      : .::;
                                                                                                                             "::.:.                     . :. :..
                                                                                                                                                    ::'.:".  .' i                      |

        Task No:
        Task Order Dt:                                                                CO Tech. Rep:
        Orig Auth Hrs:                                                                Orig Auth Costs:
         Current Auth:                                                                Current Auth Cost:
         Tot Actl IPR Hr:                                                             Tot Actl Cost:

                                                                                                   at                                                                      .S ..



                     YI, J                                                      3.1          18-SEP-04
                     WEEBER,               D                                 11.0            18-SEP-04
                      REINES, C                                              17.3            18-SEP-04
                      LEGO, H                                                17.4            18-SEP-04
                      ANTHONY,             M                                 18.0            04-SEP-04
                                    STotal: ______                           66.8        |
S.10/01/04   07:49. FAX 301 903 4656          CAPITAL REGION               -, FORS FIVEA           ]004



                                                                                       Attachment 4

                           AUDIT DATABASE INFORMATION SHEET


     1. Project No.: A04TG032

     2. Title of Audit: Evaluation of "The Federal Energy Regulatory Commission's Cyber Security
         Program - 2004"

     3. Report No./Date: OAS-L-04-21/September 24,2004

     4. Management Challenge Area: National Security

     5. Presidential Mgmt Initiative: Expanded Electronic Government

     6. Secretary Priority/Initiative: Information Technology Management

     7. Program Code: Federal Energy Regulatory Commission

     8. Location/Sites: Single-Site Audit/Federal Energy Regulatory Commission

     9. Finding Summary: As.required by the Federal Information Security Management Act (FISMA),.
        we performed an independent evaluation to determine whether the Federal Energy Regulatory
        Commission's (Commission) unclassified cyber security program protected data and information
        systems. Our evaluation revealed that the Commission made a number of improvements in its
        cyber security program in areas such as certification and accreditation and contingency
        planning. However, we did note that the Commission had completely tested only one of five
        system-level contingency plans. Additionally, the Commission has not finalized its own risk
        assessment methodology.

      10. Keywords:        Federal Energy Regulatory Commission
                           Federal Information Security Management Act
                           Cyber Security
                           Information Technology
                           FERC
                           FISMA
  DOE F 1325.8
    (8-89)
  EFG(07-90)


United States Government                                                                 Department of Energy

Memorandum
     DATE:       September 13, 2004
 REPLY TO:       IG-34 (A04TG032)                                     Audit Report No.: OAS-L-04-21
 SUBJECT:        Evaluation of "The Federal Energy Regulatory Commission's Cyber Security Program - 2004"

       TO:       Chairman, Federal Energy Regulatory Commission


             The purpose of this report is to inform you of the results of our annual evaluation of the
             Federal Energy Regulatory Commissiods (Commission) unclassified cyber security program.
             This evaluation was initiated in June 2004, and our field work was conducted through
             September 2004. The audit methodology is described in the attachment to the report.

             Introduction and Objective

             The Commission's increasing reliance on information technology is consistent with satisfying
             the President's Management Agenda initiative of expanding electronic government. The
             Commission expects to invest $23.5 million on information technology related activities in
             Fiscal Year 2004 to meet mission requirements of regulating interstate transmission of
             natural gas, oil and electricity, and regulating gas and hydropower projects.

             As required by the Federal Information Security Management Act (FISMA) and the Office of
             Management and Budget (OMB) implementing guidance, the Office of Inspector General
             performed an independent evaluation to determine whether the Commission's unclassified
             cyber security program protected data and information systems.

             Conclusions and Observations

             Our evaluation revealed that the Commission had made a number of improvements in its
             unclassified cyber security program. For instance, we found that the Commission had:

                   * Finalized a certification and accreditation methodology in March 2004 and began an
                     effort to certify and accredit all major applications and general support systems;

                   * Utilized the National Institute of Standards and Technology Guide for self assessment
                     of programs and systems; and,
      *   Established a formal capital planning and investment control process.

Despite these improvements, we noted that the Commission had not completed contingency
planning, risk management, and certification and accreditation of systems. For example, the
Commission had developed system-level contingency plans for only three of five major
systems and had completely tested only one of the plans. Although the Commission used the
National Institute of Standards and Technology risk assessment methodology as required by
FISMA, it had yet to finalize a risk assessment methodology tailored to its needs--a key step
in determining current security vulnerabilities within an organization and implementing
mitigating controls. Additionally, at the time of our review the Commission had only
completed the certification and accreditation process for three of its five major applications
and general support systems. Successful completion of these ongoing initiatives should help
correct remaining cyber security problems at the Commission.

Since no recommendations are being made in this letter report, a formal response is not
required. We appreciate the cooperation of your staff throughout the audit.


                                                       /S/
                                           George W. Collard, Acting Director
                                           Science, Energy, Technology,
                                             and Financial Audits
                                           Office of Audit Services
                                           Office of Inspector General


Attachment


cc:       Executive Director, FERC
          Chief of Staff, Department of Energy
          Chief Information Officer, Department of Energy
                                                                                   Attachment


SCOPE AND METHODOLOGY.

We performed our evaluation between June and September 2004. We evaluated controls
over network operations to determine the effectiveness of access controls related to
safeguarding information resources from unauthorized internal and external sources. The
evaluation included a limited review of general and application controls in areas such as
certification and accreditation, access controls, application software development and change
controls, and contingency planning.

We satisfied our evaluation objective by reviewing applicable laws and regulations
pertaining to cyber security and information technology resources, such as FISMA and OMB
Circular A-130 (Appendix III), and reviewing the Commissiods overall cyber security
program management, policies, and procedures. We also reviewed applicable standards and
guidance issued by the National Institute of Standards and Technology. The Commission's
headquarters were evaluated in conjunction with the annual audit of the Department's
Consolidated Financial Statements, utilizing work performed by KPMG LLP, the OIG
contract auditor. Their review included limited analysis and testing of general and
application controls for systems and a follow up review of the status of previously reported
weaknesses.

We evaluated the Commission's implementation of the Government Performance Results Act
of 1993 related to the establishment of performance measures for cyber security. We did not
rely solely on computer-processed data to satisfy our objectives. Because our review was
limited, it would not have necessarily disclosed all internal control deficiencies that may have
existed at the time of our review.

The review was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the objectives. We held an exit
conference with the management on September XX, 2004.
